CERTIFICATE OF WORD COUNT
No. 20-170
KAREN C. HAN,
Petitioner,
v.
HANKOOK TIRE CO., LTD.,
Respondent.
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ
of certiorari contains 1,746 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of peijury that the foregoing is true and correct.
Executed on September 25,2020

Karen C. HmCpro se
2512 Carroll Ct.
Flower Mound, Texas 75022
Phone: (972) 355-7480
karenh514@gmail.com

